Jv

No.

ftflifi

IN THE
SUPREME COURT OF THE UNITED STATES

WILLIAM

ECHOLS,

w

— PETITIONER

FILED
JAN 0 5 2021

(Your Name)
vs.

^PR EEMEFCnl

DOUGLAS FENDER, WARDEN

gK

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

__________
UNITED
STATES DISTRICT COURT/NORTHERN DISTRICT OF OHIO/EASTERN DIV.
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)

PETITION FOR WRIT OF CERTIORARI

WILLIAM ECHOLS,

#A663-205

(Your Name)
501 THOMPSON ROAD/P.0. BOX 8000

(Address)
CONNEAUT, OHIO

4 4030

(City, State, Zip Code)
N/A

(Phone Number)

RECEIVED
JAN 2 2 2021

CONSTITUTIONAL QUESTION(S)
I.

WHETHER ECHOLS WAS DENIED A FAIR AND IMPARTIAL TRIAL
DUE TO SEVERAL MAJOR CONSTITUTIONAL AND DUE PROCESS
VIOLATIONS THAT INCLUDED AN IMPROPER JOINER OF CASES
TOTALLY INDEPENDENT OF EACH OTHER?

II.

WHETHER THERE WAS INSUFFICIENT EVIDENCE TO CONVICT
ECHOLS OF THE CRIMES FOR WHICH HE WAS CONVICTED OF
HEREIN?

III. WHETHER ECHOLS WAS DENIED HIS CONSTITUTIONAL RIGHT
TO CONFRONT JIS ACCUSER AT TRIAL?
IV.

WHETHER ECHOLS WAS CONVICTED AND SENTENCED FOR ALLIED
OFFENSES DENYING ECHOLS HIS CONSTITUTIONAL AND DUE
PROCESS RIGHT TO A FAIR TRIAL?

-ii-

LIST OF PARTIES

Ixl All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES

See the Table of Authorities attached hereto and incorporated
by reference herein.

-iii-

TABLE OF CONTENTS
1

OPINIONS BELOW
JURISDICTION...............................................................................

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

4

STATEMENT OF THE CASE

6

REASONS FOR GRANTING THE WRIT

22

CONCLUSION

INDEX TO APPENDICES

APPENDIX A -

Sixth Circuit Court of Appeals of the United States
A— 1
Opinion 2020 U-S- App. LEXIS 27868

APPENDIX B - United States District Court, Northern District of
A-2
Ohio, Eastern Division (December 9, 2019)

APPENDIX C
APPENDIX D
APPENDIX E
APPENDIX F

-iv-

TABLE OF AUTHORITIES CITED
CASES

PAGE(S)

Crawford v. Washington/ 541 U.S. 36, 124 S.Ct. 1354 (2004) ..

10,11,12,13,15,16

Davis v. Washington, 547 U.S. 813, 826, 126 S.Ct. 2266 (2006)

....... non2

Jackson v. Virginia, 443 U.S. 307, 99 S.Ct. 2781 (1979) ........

..........

17,19

State v. Arnold, 126 Ohio St.3d 290, 210-Ohio-2742 ..................

..........

13.14

State v. Babb, 8th Dist. Cuyahoga No. 86294, 2006-0hio-2209 .

13

State v. Brinkley, 105 Ohio St.3d 231, 2005-0hio-1507 ............

7

State v. Brown, 119 Ohio St.3d 447, 2008-0hio-4569 ..................

20,21

State v. Diar, 120 Ohio St.3d 460, 2008-Ohio-6266 ....................

6

State v. Echols, 128 Ohio App.3d 677, 696, 716 N.E.2d 728 (1st. Dist. 1998) ...

9

State v. Issa, 93 Ohio St.3d 49, 752 N.E.2d 904 (2001) ..............................................

15

State v. Jenks, 61 Ohio St.3d 259, 574 N.E.2d 492 (1991) ..........................................

17

State v. Johnson, 128 Ohio St.3d 153, 2010-0hio-6314 ................ .................................

20,21

State v. Lewis, 1st Dist. Hamilton Nos. C-050989 & C-060010, 2007-0hio-1485 ...

10

State v. Lott, 51 Ohio St.3d 160, 163, 555 N.E.2d 293 (1990) ....

7

State v. Muttart, 116 Ohio

13

St.3d 5, 2007-0hio-5267 ........................

State v. Quinones, 11th Dist. Lake No. 2003-L-015, 2005-Ohio-6576

7

State v. Robinson, 47 Ohio St.2d 103, 108, 1 N.E.2d 88 (1976) ...

17

State v. Ruff, 143 Ohio St.3d 114, 2015-Ohio-995 ..............................

22

State v. Siler, 116 Ohio St.3d 39, 2007-Ohio-5637 ....... ....................

12

State v. Stahl, 111 Ohio St.3d 186, 2006-Ohio-5482 ..........................

13

State v. Thompkins, 78 Ohio St.3d 380, 390, 678 N.E.2d 541 (1997)

16,17

State v. Torres, 66 Ohio St.2d 340, 421 N.E.2d 1288 (1981) ..........

6

State v. Whitfield, 124 Ohio St.3d 319, 2010-Ohio-2 ........................

20

Thomas v- Jenkins, 2015 U.S. Dist. LEXIS 5934 (2015) ......................

21

United States v. Lane, 474 U.S. 438, 446 (1986) ................................

6

Whorton v. Bockting, 549 U.S. 406, 420, 127 S.Ct. 1173 (2007) —

12

STATUTES & RULES
Ohio Crim.F.8(A) .......

6

Ohio Crim.P.13 .....................

6

Ohio Crim.P.14 .....................

7

Evid.R.404(B)

7,8

O.P.C.

..................

$2905.01(A)(4)

18
-v-

O.R.C. §2907.01

..........

18

O.R.C. §2907.02(A)(2)

18

O.R.C. §2941.25(A)

20,21

..

15,19

28 U.S.C. §2254

-vi-

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[x] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix —£---- to
the petition and is Sixth Circiut Court of Appeals of the United States
; or,
[ x| reported at 2020 n.s. App. T.EXTS 2 786 8
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix —E— to
the petition and is
; or,
lx 3 reported at 2019 U.S. Dish. LEXIS 211691
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
_ to the petition and is
Appendix
_________________ ____________ ; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the —
appears at Appendix

court
to the petition and is

; or,
[ ] reported at------ !
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

JURISDICTION
Ixi For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was September 1/ 2020 .
ixl No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
, and a copy of the
Appeals on the following date: ------------------order denying rehearing appears at Appendix
An extension of time to file the petition for a writ of certiorari was granted
March 19< 2020 (date)
150 davs
(date) on
to and including
. Order List: 589 U-S.
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).
Note: Order List: 589 U.S. (Pursuant to COVID-19 (Public Health Concerns).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix----------[ ] A timely petition for rehearing was thereafter denied on the following date:
_______________________ _ and a copy of the order denying rehearing
appears at Appendix----------[ ] An extension of time to file the petition for a writ of certiorari was granted
(date) in
(date) on
to and including-----Application No. ---- A
-The jurisdiction of this Court, is invoked under 28_„U. S. C. § 1257(a).

-2-

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

The Fifth Amendment to the United States Constitution provides:
No person shall be held to answer for a capital or otherwise infamous crime, unless on
a presentment or indictment of a grand jury, except in cases arising in the land or naval
forces, or in the militia, when in actual service in time of war or public danger; nor
shall any person be subject for the same offense to be twice put in jeopardy of life or
limb; nor shall be compelled in any criminal case to be a witness against himself, nor
be deprived of life, liberty or property, without due process of law; nor shall private
property be taken for public use, without just compensation.

The Sixth Amendment to the United States Constitution provides:
In all criminal prosecutions, the accused shall enjoy the right to a speedy and public
trial, by an impartial jury of the State and district wherein the crime shall have been
committed, which district shall have been previously ascertained by law, and to be
informed of the nature and cause of the accusation; to be confronted with the witnesses
against him; to have compulsory process for obtaining witnesses in his favor, and to
have the Assistance of Counsel for his defense.

The Fourteenth Amendment to the United States Constitution provides in pertinent part:
Sec. 1. [Citizens of the United States.] All persons born or naturalized in the United
States, and subject to the jurisdiction thereof, are citizens of the United States and of
the State wherein they reside. No State shall make or enforce any law which shall
abridge the privileges or immunities of citizens of the United States; nor shall any
State deprive any person of life, liberty, or property, without due process of law; nor
deny to any person within its jurisdiction the equal protection of the laws.

-3-

STATEMENT
I.

OF

CASE

PROCEDURAL HISTORY
A.

Factual findings of the Ohio Court of Appeals

Respondent submitted the factual findings of the Ohio Court
of Appeals, Eighth Appellate District, Cuyahoga County as the
Procedural History of the instant case & therefore should be the
binding factual findings as true & accurate herein.
Plaintiff agrees for the most part with the aforementioned
Procedural History, but asserts that the Court of Appeals
interpretation on the Procedural History is in conflict with the
transcripts of this current case.

The Aforementioned conflict is

paramount to Petitioner's instant Federal Habeas claims.
The State's first witness Kimberly Ann Corney ("Ms. Corney"),
one

of the alleged victims in this matter.

Ms. Corney testified

that on June 7,1994 she was sexually assaulted while walking home
at 2:00A.M. (Tr.at 558-563).

She specifically testified she had

been over a friend's house braiding hair, (Tr.at 554). But the police
report indicates she originally stated she was coming home ’from
a beverage store. (Tr.at 758). She testified she was six months
pregnant at the time of the assault. (Tr.at 582). But medical records
pertaining to her emergency room visit indicate she was, in fact,
not pregnant. (Tr.at 590). She further testified she was wearing
panties at the time of the assault. (Tr.at 564). But she originally
told investigators she was not wearing any underwear. (Tr.at 758).
Ms. Corney further testified that assailant bent her over before
engaging in intercourse. (Tr.at 587). But the police report indicates
she initially stated the assailant laid her on the ground before
-A-

engaging in intercourse. (Tr.at 758). She further testified
that after the assault the assailant ran away. (Tr.at 587).

But

she originally stated the assailant fled in a car. (Tr.at 761).
And Ms. Corney admitted she had an extensive criminal history,
including offenses of drug possession, receiving stolen property,
& burglary. (Tr.at 555).
Considering the aforementioned conflict between the Respondent's
submitted Procedural History of this case & the transcripts of this
case, Petitioner objects to the presumption of correctness asserted
by the Respondent as it relates to the aforementioned stated conflict
herein & asserts that the sworn certified trabscripts of this case
is the true & accurate record
B.

of facts of this matter.

State Conviction
Petitioner does not dispute the respodent's submitted State

conviction assertion thereby the presumption of correctness is
established herein.
C.

Direct Appeal
Petitioner does not dispute the Respondent's Direct Appeal

assertion therefore, the presumption of correctness is established
herein.

Petitioner has exhausted all his State legal remedies &

has presented his Federal Habeas claim properly & timely before
this Honorable Court.
D.

Resentence
Petitioner does not dispute Respondent's Resentence Assertion

therefore, the presumption of correctness is established herein.
Petitioner has exhausted all his State legal remedies & has presented
his Federal Habeas claim properly & timely before this Honorable
Court.
-5--

REASONS

FOR

GRANTING

THE

PETITION

LAW AND ARGUMENT IN SUPPORT OF PETITIONER'S WRIT OF CERTIORARI
A.

Ground One

Petitioner contends that the joinder of the offenses involving
the June 7,1994 incident & the May 8,1999 incident was prejudiced
& improperly influenced the jury.

Improper joinder does not, by

itself, violate the federal constitution. United States v. Lane,474
U.S.438,446(1 986) .
The Supreme Court in Lane suggested in passing that misjoiner
could rise "to the level of a constitutional vio;lation only if
it results in prejudice so great as to deny a defendant his Fifth
Amendment right to a fair trial."
Ohio Crim.R.13 provides that a trial court may order two or
more indictments to be tried together "if the offenses or the
defendants could have been joined in a single indictment." Ohio
Crim.8(A) governs the joinder of offenses in a single indictment.
Under Ohio Crim.R.8(A), two or more offenses may be charged together
if the ofeenses "are of the same or similar character, or are based
on the same act or transaction, or are based on two or more acts
or transactions connected together or constituting parts of a common
scheme or plan, or are part of a course of criminal conduct."
The law favors joining multiple offenses in a single trial if
the requirements of Ohio Crim.R.8(A) are satisfied. State v. Diar,120
Ohio St.3d 460,2008-Ohio-6266,900 N.E.2d 565,5194.

"Joinder & the

avoidance of multiple trials is favored for many reasons, among
which are conserving time & expense, diminishing the inconvenience
to witness & minimizing the possibility of incongruous results in
successive trials before different juries. State v. Torres,66 Ohio

-6-

St.2d 340,421 N.E.2d 1288(1981).

See also State v. Schiebel,55

Ohio St.3d 71,86-87, 564 N.E.2d 54(1990); State v. Schaim,65 Ohio
St.3d 51,58,600 N.E.2d 661(1992).
Under Ohio Crim.R.14, however, the trial court may grant a
severance if it appears that the defendant would be prejudiced by
the joinder.

The defendant bears the burden of proving prejudice.

State v. Brinkley,105 Ohio St.3d 231,2005-0hio-1507,824 N.E.2d 959,
«29.
The state may refute the defendant's claim of prejudice under
two methods.

Under the first method, the state must show that the

evidence from the other case could have been introduced pursuant
to the "other acts" test of Evid.R.404(B); under the second method
(referred to as the "joinder test"), the state does not have to
meet the stricter "other acts" admissibility test but only need
to show the evidence of each crime joined at trial is "simple &
direct." State v. Lott,51 Ohio St.3d 160,163,555 N.E.2d 293(1990).
"When simple & direct evidence exists, an accused is not prejudiced
by joinder regardless of the nonadmissibility of avidence of these
crimes as "other acts" under Evid.R.404(B)." Id.
"Simple & direct'"evidence.means ..the .'evidence- of '.'eachberime 'is
"so clearly eparate & distinct as to prevent the jury from
considering evidence of [one crime] as corroborative as the other."
State v. Quinones, 11 Dist.Lake No.2003-L-01 5, 2005-Ohio-6576, 514 8 .
See also State v. Varney,4th Dist. Hocking Nos.07CA18 & 07AP18,
2008-Ohio-5283 (the purpose of the "joinder test" is to prevent
the finder of fact from confusing the offenses).
Petitioner asserts that there was significant risk of unfair
i

-J-

prejudice, the June 7,1994 incident (offense), should not have been
joined with the May 8,1999 incident (offense).

The state claims

that even if there was a risk of prejudice, the evidence of the
other offense would have been allowed in the trial of the opposite
offense pursuant to Evid.R.404(B).

Petitioner strongly disagrees

with the state's position.
In this present case, for judicial economy the court combined
four (4) offenses, two offenses occurring in 1994 & the other two
(2) 1999 into one trial.

Despite the charges on the two dates being

the same offenses (Rape & Kidnapping) if believed perpetrated by
the same individual, the modus operandi is totally different thereby
creating a prejudicial joiner that could create a miscarriage of
justice that would turn into a manifest injustice.
For the reasons stated above, Petitioner moved the trial court
for relief from prejudicial joiner & for separate trials as to Counts
One & Two, & Three & Four, respectively.
Petitioner 1s motion.

The trial denied

The evidence of the multiple violent rapes,

however, when presented in a single trial, necessarily portrayed
Petitioner as a violent, quasi-serial rapist, & the jury was
permitted to infer his guilt for the multiple & separate offenses
from this improper portrayal.

As such, the trial court erred as

a matter of law.
Here, Petitioner was greatly prejudiced.

The testimony involving

the two, discreete & separate sexual assaults was hughly graphic
& salacious.

It is undisputed that the two separate sexual assaults

did not include a similar modus operandi.

As such, there was a

high likelihood the jury would misuse the evidence of multiple

-a-

violent sexual assaults & create a hostile & unfavorable opinion
of the Petitioner in their minds prior to hearing any evidence.
See State v. Echols,128 Ohio App.3d 677,696,716 N.E.2d 728(1st Dist.
1998)(holding that trial court erred by failing to sever counts
where the evidence of the offenses failed to demonstrate a modus
operandi, & where the likelihood that the jury would misuse the
evidence was substantial).
The evidence of each separate crime was not simple & direct.
Indeed, the State called multiple witnesses with advanced degrees
to testify at great lenght as to the complex procedures involved
in conducting DNA

analysis.

This testimony attempted to provide

clarity into the scientific rigor involved in comparative analysis
of DNA profiles.

Stated differently: evidence that requires

testimony from an expert witness with an advanced degree is
necessarily anything but simple & direct.
Therefore, the State cannot rebut Petitioner's showing of prejudicial
joinder as to the separate & discrete sexual assaults as charged
in the indictment.

The trial court, then, erred as a matter of

law when it denied Petitioner's motion for separate trials.
In this present case, the evidence is not simple & direct.
The offenses involved different alleged victims, & the cats committed
against each alleged victim were separate in time & location from
each other.

The state's presentation of the evidence with respect

to each of the charges are indirect & complicated (DNA) evidence,
as well as one (1) alleged victim being deceased with only medical
records to support the state's theory of the incident, thus making
it difficult for a jury to independently separate the proof for
f

B.

Ground Two

The Sixth Amendment of the United States Constitution provides,
in pertinent part, that: "In all criminal prosecutions, the accused
shall enjoy the right***to be confronted with the witness against
him."

The Confrontation Clause bars the "admission of testimonial

statements of a witness who did not appear at trial unless he was
unavailable to testify, & the defendant had a prior opportunity
for cross-examination." State v. Lewis, 1st Dist. Hamilton Nos.
C-050989 & C-060010,2007-0hio-1485,fl29.
In Crawford v. Washington,541 U.S.36,124 S.Ct.1354,158 L.Ed.2d
177(2004), the Supreme Court held that the Confrontation Clause
bars the admission of "testimonial statements of witness absent
from trial." Id. at 59.

The court explained that "where testimonial

statements are at issue, the only indicuimof reliability sufficient
to satisfy constitutional demands is the one the Constitution
actually prescribes."

This means that the state may not introduce

"testimonial" hearsay against a criminal defendant, regardless of
whether such statements are deemed reliable, unless the defendant
has an opportunity to cross-examine the declarent. Id. at 53-54,68.
However, the Crawford court also held that the Confrontation
Clause only requires exclusion of "testimonial" as opposed to
nontestimonial" evidence.

"It is the testimonial character of the

statement that separates it from other hearsay that, while subject
to traditional limitations upon hearsay evidence, is not subject
to the Confrontation Clause." Davis v. Washington,547 U.S.813,821,126
S.Ct.2266,165 L.Ed.2d 224(2006).

If a statement is not testimonial,

the principlesembodied in the Confrontation Clause do not apply#
-10-

each offense without the prjudice factor running into the other
offense.
Our justice system is based on the fundamental principle that
the major function deprived from the constitution & due process
rights is to ensure that a fair & just legal proceeding occurs.
All American Citizens accused of a crime, is guaranteed their
constitutional right to due process & that right will be protected.
A breakdown of the aforementioned fundamental principles of justice
will cause a miscarriage of justice that would create a manifest
injustice that the outcome of the jury verdict that no American
Citizen could trust.
Therefore, for the trial court not to separate the offenses
at least by time & location to ensure that no prejudice would spill
over from an offense to another is a total abuse of discretion.
Petitioner, through his assignment of error, argues that his
right to confront the victim was violated because she was deceased
at the time of trial.

Specifically, Petitioner argues that the

trial court erred by admitting into evidence the statements made
by the deceased victim to a medical provider & further erred by
allowing the narrative from the victim's medical records into
evidence.
Defense counsel argued the victims statements were not excited
utterances & admission of her statements would violate Petitioner's
right to confront witness within the meaning of Crawford v.
Washington,541 U.S.36, 124 S.Ct.1354,158 L.Ed.2d 177(2004).
Therefore, Petitioner is entitled to the Habeas Corpus relief he
seeks herein.

-11-

Whorton v. Bockting,549 U.S.406,420,127 S.Ct.1173,167 L.Ed.2d 1
(2007) .
Although the Crawford Court did not specifically define the
term "testimonial," it explained that hearsay statements are
implicated by the Confrontation Clause when they are "made under
circumstances which would lead an objective witness reasonably to
believe that the statement would be available for use at a later
trial." Crawford at 52.
In Davis at 822, decided two years after Crawford, the court
held that "statements are nontestimonial when made in the course
of police interrogation under circumstances objectively indicating
that the primary purpose of the interrogation is to enable police
assistance to meet an ongoing emergency."

By contrast, statements

are testimonial when the circumstances indicate that there "is no
such ongoing emergency, & that the primary purpose of the
interrogation is to establish or prove past events potentially
relevant to later criminal prosecution." Davis at Id.

See also

State v. Siler,116 Ohio St.3d 39,2007-Ohio-5637,876 N.E.2d.534,
paragraph one of the syllabus.
In the matter now before this Court, the trial court permitted
the State of Ohio to use the medical records of Marnie Macon to
present a narrative surrounding her alleged sexual assault,
notwithstanding that mush, if not all, of the narrative had no
relationship to any putative medical diagnosis.

The trial court

further permitted the State's witness to testify to these medical
records & read the narrative contained therein.

The above violated

Petitioner's Sixth Amendment right to confrontation.
i

-12-

As appellate reviews issues concerning Confrontation Clause
violations de novo. See State v. Babb,8th Dist. Cuyahoga No.86294,
2006-0hio-2209.

Pursuant to the Sixth Amendment to the United States

Constitution, out-of-court statements that are testimonial in nature
are inadmissible unless the declarant is unavailable & the defendant
was given a prior opportunity fro cross-examination. Crawford v.
Washington,541 U.S.36,52,124 S.Ct.1354,158 L.Ed.2d 177(2004).
In State v. Stahl,111 Ohio St.3d 186,2006-Ohio-5482. The Supreme
Court of Ohio adopted the "objective witness" test when analyzing
whether statements made to non-law enforcement officials violated
the Confrontation Clause, & further defined testimonial statements
as those made "under circumstances which would lead an objective
witness reasonably to believe that the statement would be available
for use at a later trial."

Statements made to medical personnel

for purposes of diagnosis or treatment are not inadmissible under
Crawford.

State v. Muttart,116 Ohio St.3d. 5,2007-Ohio-5267; compare

State v. Arnold,126 Ohio St.3d.290,201 O-Ohio-2742(holding statements
that serve primarily a forensic or investigative purpose are
testimonial & are inadmissible pursuant to the Confrontation Clause
when the declarant is unavailable for cross-examination).
State v. Arnold,126 Ohio St.3d.290,201O-Ohio-2742 is particularly
instructive. Arnold statements made by a child sexual assault victim
to a social worker at a hospital.

The court in Arnold held that

the interview of the child served dual purposes: 1) to elicit
information to assist 'in the investigation & prosecution of an
offender. Id. at J[33.

Accordingly the court held that those

statements pertaining to where the victim was touched on his body

-13-

were necessary for proper medical diagnosis & treatment & were
therefore not testimonial. Id. at 5122.

But the court further found

many of the statements were not necessary for medical diagnosis
thereby serving to further an investigation. Id. at 23 (finding
statements that defendant shut & locked the bedroom door before
raping her & description of defendant's boxer shorts were not
necessary for medical diagnosis & were therefore testimonial.)
Here, the statements contained in the medical records of Marine
Macon, just like the involved statements in Arnold, served dual
purposes.

When asked by the State how Dr. Abumeri & other official

and other officials at St. Michael's approached victims of sexual
assault, that testified as follows:
Q:

Just generally, before we get into what you did for Ms.
Macon, a patient on this date, just generally, what sort
of things are you—what sort of information are you trying
to get from victims of sexual assault, & what can you do
for them?

A:

Basically, we like to know how the incident happened, their
injury & the physical evidence, & also how to treat them,
how to prevent pregnancy, prevent sexually transmitted
diseases, & to help themmentally & physically, And we
always have a police report, you know, done.

Q:

All right. So you're saying if a victim of sexual assault
comes in & tells you that they had been raped, you would
notify police if they hadn't already been?

A:

Yes, the nurse eill notify.

(Tr. at 664)(emphasis added). Dr. Abumeri, then, acknowledged that
the policy of St. Michael's in regard to seeing victims of sexual
assaults was, in part, to further some investigatory purpose.

As

such, the trial court should have conducted an in camera review
of the medical report & made findings as to what statements were
for the purpose of a medical diagnosis & what statements served
v___
-14-

J

an investigatory purpose.
Dr. Abumeri read into the record the narrative contained in
Marnie Mason's medical report describing the circumstances of Manie
Macon's assault. (Tr. at 673).

Of note, many of the statements

contained in the narrative were not necessary for any medical
diagnosis and/or treatment & were therefore testimonial,

These

statements included, "a man pulled up in his car & told [Ms. Corney]
to get in the car or he would break her head***she became afraid
of whether he had a weapon***." (Tr. at 673).

As such, & per the

authority in Arnold, these statements should have never been admitted.
The Confrontation Clause of the Sixth Amendment to the United
States Constitution, made applicable to the states through the
Fourteenth Amendment, provides that in all criminal prosecutions,
the accused shall enjoy the right***to be confronted with the
witnesses against him. State v. Issa,93 Ohio St.3d.49,752 N.E.2d
904(2001).
The Confrontation Clause prohibits the admission of an out-ofcourt statement of a witness who does not appear at trial if the
statement is testimonial, unless the defendant has had an opportunity
to cross-examine the witness. Crawford v. Washington, supra.
Therefore, in this case, Petitioner strongly asserts that his right
to confront Marnie Macon (decease) violated his right to receive
a fair & impartial trial because Petitioner could not cross-examine
the witnesses to impeach her credibility thereby violating
Petitioner's Sixth Amendment right to the United States Constitution.
Petitioner is entitled to the habeas corpus relief pursuant
to 28 U.S.C.§2254 because of the aforementioned argument creating

-15-

an irreversible prejudice, thereby running afoul of the United States
Supreme Court's holding in Crawford v. Washington, supra.

And the

Petitioner's Due Process Rights the Sixth Amendment of the United
States Constitution.
C.

Ground Three

When assessing a challege of sufficiency of the evidence, a
reviewing court examines the evidence admitted at trial & determines
whether such evidence, if believed, would convince the average mind
of the defendant's guilt beyond a reasonable doubt. State v. Jenks,61
Ohio St.3d.259,574 N.E.2d.492(1991), paragraph two of the syllabus.
"The relevant inquiry is whether, after viewing the evidence in
the light most favorable to the prosecution, any rational trier
of fact could have found the essential elements of the crime proven
beyond a reasonable doubt." Id.

A reviewing court is not to assess

"whether the state's evidence is to be believed, but whether, if
believed the evidence against a defendant would support a conviction."
State v. Thompkins,78 Ohio St.3d.380,390,678 N.E.2d.541 (1 997).
While the test for sufficiency of the evidence requires a
determination whether the state has met its burden of persuasion.
Thompkins at 390, 678 N.E.2d.541.

Also unlike a challenge to the

sufficiency of the evidence, a manifest weight challenge raises
a factual issue.
"The court, reviewing the record, weighs the evidence & all
reasonable inferences, considers the credibility of witnesses
& determines whether in resolving conflicts in the evidence,
the jury clearly lost its way & created such a manifest
miscarriage of justice that the conviction must be reversed
& a new trial ordered. The discretionary power to grant a new
trial should be exercised only in the exceptional case in which
the evidence weighs heavily against the conviction."
-16-

Id. at 387,678 N.E.2d.541, quoting State v. Martin,20 Ohio App.3d.175
485 N.E.2d.717(1st Dist.1983). A finding that a conviction was
supported by the manifest weight of the evidence, however,
necessarily includes a finding of sufficiency. State v. Howard,
8th Dist. Cuyahoga No. 97695,201 2-Ohio-3459,201 2 WL31 33244 , J[1 4 , citing
Thomkins, at 388,678 N.E.2d.541.
Petitioner was found guilty of Counts Three & Four, which
alleged, inter alia, that Petitioner used force or the threat or
force.

Petitioner's conviction, however, is not supported by

sufficient evidence.
Sufficiency is a legal standard applied to determine whether
the evidence admitted at trial is legally sufficient to support
the verdict as a matter of law. State v. Thompkins,78 Ohio St.3d
380,678 N.E.2d.541 (1997).

A criminal conviction is not supported

by sufficient evidence when the prosecution has failed to "prove
beyond a reasonable doubt every fact necessary to constitute ant
crime for which it prosecutes a defendant." State v. Robinson,47
Ohio St.2d 103,108,1 N.E.2d 88(1976). As previously stated, the
test for whether determining whether a criminal conviction is
supported by sufficient evidence is "whether, after viewing the
evidence in a light most favorable to the prosecution, any rational
trier of fact could have found the essential elements of the crime
proven beyond a reasonable doubt." State v. Jenks,61 Ohio St.3d
259, 574 N.E.2d 492(19991), paragraph two of the syllabus.

Where

a criminal conviction is not supported by sufficient evidence, due
process requires that the conviction be reserved. Jackson v.
Virginia,443 U.S.307,99 S.Ct.2781,61 L.Ed.2d 560(1979).
/

-17-

}
In Count Three, Petitioner was convicted of rape in violation of
R.C.§2907.02(A)(2), which provides "no person shall engage in sexual
conduct with another when the offender purposely compels the other
person to submit by force or threat."

In Count Four, Petitioner

was convicted of kidnapping in violation Of R.C.§2905.01(A)(4),
which provides noe person, by force, threat, or deception***shall
remove another from the place where the other person is found or
restrain the liberty of the other person***to engage in sexual
activity, as defined in section 2907.01 of the Revised Code, with
the victim against the victims will." To sustain a conviction for
the above offenses, then, the State must show Petitioner used force
or the threat of force.
As noted, .s. Macon did not testify at trial.

Her testimony,

however, was included through the admission of her medical records.
As stated herein, the admission of her medical records violated
Petitioner's rights under the Confrontation Clause of the Sixth
Amendment to the United States Constitution & should have not been
admitted.

Since there was no additional testimony adduced at trial

showing the Petitioner used force and/or the threat of force towards
Ms. Macon, Petitioner's convictions are not supported by sufficient
evidence & therefore record herein clearly shows that the verdict
was not supported by the evidence.
Sufficiency of the evidence is a test of adequacy as to whether
the evidence is legally sufficient to support a verdict as a matter
of law.

In a sufficiency inquiry, an appellate court does not assess

whether the state's evidence is to be believed but whether, if
believed, the evidence admitted at trial supported the conviction.
'“I

-18-

State v. Starks,8th Dist. Cuyahoga No.91682,2009-Ohio-3375, citing
Thompkins at 387.
"The relevant inquiry is whether, after viewing the evidence
in a light most favorable to the prosecution, any rational trier
of fact could have found the essential elements of the crime
proven beyond a raesonable doubt." State v. Jenks, supra;
Jackson v. Virginia,443 U.S.307,99 S.Ct.271,61 L.Ed 2d 560.
In this present case, viewing this evidence in a light most
favorable to the prosecution, no rational trier of fact could find
that the Petitioner used force and/or the threat of force towards
Ms. Macon to support the Petitioner's conviction herein.
Petitioner is entitled to the habeas corpus relief pursuant
to 28 U.S.C.§2254 because of the aforementioned averment creating
an irreversible prejudice, thereby running afoul of the United States
Supreme Court's holding in Jackson v. Virginia,443 U.S.307,99 S.Ct.
271,61 L.Ed.2d 560.
It must be noted that Petitioner has always maintained his actual
innocence of the crimes for which he now stands convicted, but
constantly & consistently fights to overturn these convictions.
D.

Ground Four

In this present case, the Trial Court found the Rape & Kidnapping
offenses set forth in Counts One & Two & Counts Three & Four were
not allied offenses of similar import.

Counsel for Petitioner

objected to the trial court's findings at sentencing.

Because the

kidnappings were incidental to the rape offenses, however, the trial
court erred in not finding the same to be allied offenses of similar
import & merge them accordingly.

Petitioner timely appealed to

the Eighth District Court of Appeals of Ohio presenting this very

-19-

issue as one of the issues presented on appeal.

The Court of Appeals

found Counts One & Two to be allied offenses, while Counts Three
& Four were not allied offenses, because Petitioner asserts that
one & two as well as three & four are allied offenses, Petitioner
presents this argument to this Honorable Court for a De novo review
of the issue.
A defendant may be indicted & tried for allied offenses of
similar import, but may be sentenced on only one of the allied
offenses. State v. Brown,119 Ohio St.3d 447,2008-Ohio-4569,895 N.E.
2nd 149.

Because R.C.§2941.25(A) protects a defendant from being

punished for allied offenses, the determination of the defendant's
guilt for committing allied offenses remain intact, both before
& after the merger of allied offenses. State v. Whitfield,124 Ohio
At.3d 319,201O-Ohio-2,922 N.E.182; City of Parma Heights v. OWCA,
(8th Dist.2017), 2017-Ohio-179; & State v. Jevon Prieto,(7th Dist.
2016), 2016-Ohio-8480.
In State v. Johnoson, the Ohio Supreme Court modified the test
for determining whether offenses are Allied Offenses of similar
import. 128 Ohio St.3d 153,201O-Ohio-6314,942 N.E.2d 1061.

The

court directed us to look at the elements of the offenses in question
& determine whether or not it is possible to commit one offense
& commit the other with the same conduct.

If the answer to each

question is in the affirmative, the court must then determine whether
or not the offenses were comitted by the same conduct.

If the answer

to the above two (2) questions is yes, then the offenses are allied
offenses of similar import & will be merged.

If however, the court

determines that commission of one offense will never result in ;
1
-20-

the commission of the other, or if there is a separate animus for
each offense, then the offenses will not merge according to Johnson,
supra. 2015 U.S.Dist.Lexis 5934::Thomas v. Jenkins::May 6,2015.
Regarding Merger of Allied Offenses of similar import,
R.C.§2941.25 provides:
(A)

Where the same conduct by defendant can be construed two
or more allied offenses of similar import, the indictment
or information may contain counts for all such offenses,
two or more offenses of dissimilar import, or where his
conduct results in two or more offenses of the same or
similar kind committed separately or with a separate animus
as to each, the indictment or information may contain counts
for all such offense, & the defendant may be convicted
of all of them.

As set forth in State v. Johnson,128 Ohio St.3d 153, 2010-Ohio6314,942 N.E.2d 1061, the test for whether offenses are allied
offenses of similar import inder R.C.§2941.25 is two-fold.

First,

the court must determine "whether it is possible to commit one
offense & commit the other with the same conduct." Id. 5148.

Second,

the court must determine "whether the offenses were committed by
the same conduct, i.e., a single act, committed with a single state
of mind." Id. at 5149, quoting State v. Brown,119 Ohio St.3d 447,2008Ohio-4569, 895 N.E.2d 149 5150.

"If the answer to both questions

is yes, then the offenses are allied offenses of similar import
& will be merged." Id. at 5150.
Recently the Supreme Court of Ohio expounded upon its holding
in Johnson, stating:
As a practical matter, when determining whether offenses are
allied offenses of similar import within the meaning of
R.C.§2941.25, courts must ask three questions when a defendant's
conduct supports multiple offenses: (1) Were the offenses
dissimilar in support or significance? (2) Were they committed
separately? (3) Were they committed with separate animus or

-21-

motivation? An affirmative answer to any of the above
will permit separate convictions. The conduct/ the
animus, & the import must all be considered. State v. Ruff,
143 Ohio ST.3d 114, 2015-0hio-995, 34 N.E.3d 114.
In this present case, the ends of justice require that the
Petitioner, Echols' writ of certiorari should be granted to
address the constitutional and due process violations that occurred
•

within this instant case and/or at least a review of the facts and
evidence that Echols can and will present to this Honorable Court.
CONCLUSION
Petitioner-Appellant, Echols was convicted and sentence for
some very serious crimes herein in which Petitioner, Echols was
sentenced to a very lengthy sentence (41 years).

Considering the

foregoing arguments and case laws, Petitioner, Echols has made a
substantial showing of the denial of his constitutional and due
process rights under the Fifth, Sixth and Fourteenth Amendments to
the United States Constitution.

Therefore, this instant petition

for a writ of certiorari should be granted in the interest of law,
justice, equity and good conscience and to prevent a manifest
miscarriage of justice.

Echols contends that this instant petition

for a writ of certiorari should be granted.
Respectfully submitted,

William Echols, #A663-205
Petitioner-Appellant, pro se
Lake Erie Correctional Inst.
501 Thompson Rd./P.O. Box 8000
Conneaut, Ohio 44030
DATE: December 30,

2020
-22-

>

t

Case: l:17-cvO0859-SL Doc #: 15 Filed: 12/09/19 1 of 6. PagelD #: 1203

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF OHIO
EASTERN DIVISION
WILLIAM ECHOLS,

PETITIONER,
vs.

_

BRIGHAM SLOAN, Warden,

RESPONDENT.

)
)
)
)
)
)
)
)
)
)
)

CASE NO. L-17CV859
-

JUDGE SARA LIOI
MEMORANDUM OPINION AND
ORDER

Before the Court is the Report and Recommendation of Magistrate Judge David A Ruiz
(Doc. No. 13 [“R&R”]) recommending dismissal of this petition for writ of habeas corpus filed
under 28 U.S.C. § 2254. Pro se petitioner William Echols (“Echols”) filed objections to the
R&R. (Doc. No. 14 [“Obj.”].)
In accordance with 28 U.S.C. § 636(b)(1) and United States v. Curtis, 237 F.3d 598 ,60203 (6th Cir. 2001), this Court has made a de novo determination of the magistrate judge’s R&R.
For the reasons stated below, the Court overrules Echols’ objections, adopts the R&R in its
entirety, and dismisses Echols’ petition for a writ of habeas corpus.
I. Background
Echols filed a petition for a writ of habeas corpus pursuant to 28 U.S.C. § 2254 on April
21, 2017. (Doc. No. 1 [“Pet.”].) Echols seeks relief from the sentence issued by the state trial
court following a jury trial in which the jury returned guilty verdicts against Echols for two
counts of rape, in violation of Ohio Rev. Code § 2907.02(A)(2), and two counts of kidnapping,

Case: l:17-cv-'00859-SL Doc #: 15 Filed: 12/09/19 2 of 6. PagelD #: 1204

in violation of Ohio Rev. Code § 2905.01(A)(4). (R&R at 11741.) The magistrate judge
summarized the factual predicate for these offenses, as determined by the state appellate court, as
well as Echols’ efforts to appeal his convictions in the state courts. Echols does not challenge the
accuracy of the magistrate judge’s summary of the procedural history, and the Court will accept
the magistrate’s summary, as if rewritten herein. (See id. at 1174—76; see also Obj. at 1191.)
Echols raised four grounds for relief in his habeas petition. In the R&R, the magistrate
judge recommended that the Court reject all grounds on the basis that they were procedurally
defaulted and that there was no excuse for the default. (R&R at 1183-87.) Echols filed timely
objections to the R&R.
II. Standard of Review
Under 28 U.S.C. § 636(b)(1), “[a] judge of the court shall make a de novo determination
of those portions of the report or specified proposed findings or recommendations to which
objection is made.” See Powell v. United States, 37 F.3d 1499 (Table), 1994 WL 532926, at *1
(6th Cir. Sept. 30, 1994) (“Any report and recommendation by a magistrate judge that is
dispositive of a claim or defense of a party shall be subject to de novo review by the district court
in light of specific objections filed by any party.”) (citations omitted). “An ‘objection’ that does
nothing more than state a disagreement with a magistrate’s suggested resolution, or simply
summarizes what has been presented before, is not an ‘objection’ as that term is used in this
context.” Aldrich v. Bock, 327 F. Supp. 2d 743, 747 (E.D. Mich. 2004); see also Fed. R. Civ. P.
72(b)(3) (“The district judge must determine de novo any part of the magistrate judge’s
disposition that has been properly objected to.”); L.R. 72.3(b) (any objecting party shall file

All page numbers refer to the page numbers generated by the Court’s electronic docketing system.
2

, Case: l:17-cv-00859-SL Doc #: 15 Filed: 12/09/19 3 of 6. PagelD #: 1205
V fc

“written objections which shall specifically identify the portions of the proposed findings,
recommendations, or report to.which objection is made and the basis for such objections”). After
review, the district judge “may accept, reject, or modify the recommended disposition; receive
further evidence; or return the matter to the magistrate judge with’instructions.” Fed. R. Civ. P.
72(b)(3).
When undertaking its de novo review of any objections to the R&R, this Court must be
additionally mindful of the standard of review applicable in the context of habeas corpus. “Under
the Antiterrorism and Effective Death Penalty Act of l996 (AEDPA), 110 Stat. 1214, a federal
court may grant habeas relief only when a state court’s decision on the merits was ‘contrary to,
or involved an unreasonable application of, clearly established Federal law, as determined by’
decisions from [the Supreipe] Court, or was ‘based on an unreasonable determination of the
facts.’ 28 U.S.C. § 2254(d).” Woods v. Donald, -- U.S.-, 135 S. Ctr l372, 1376, 191 L. Ed. 2d
464 (2015) (per curiam). This standard is “intentionally difficult to meet.” Id. (internal quotation
marks and citations omitted). “To satisfy this high bar, a habeas petitioner is required to ‘show
that the state court’s ruling on the <claim 'being presented in federal court.was so lacking in
justification that there was an error well understood and' comprehended an existing law .beyond
any possibility-for fainninded-'disagreement.’’’Idr-fquQtmgdlarrington v.w'/?/c/iterr562''U.Sr86,
103, 131 S. Ct. 770, 178 L. Ed. 2d 624 (2001)).
III. Echols’ Objections
Echols does not challenge the magistrate judged determination that his federal habeas
claims are procedurally defaulted.; Generally; a federal court will not review a procedurally
defaulted claim on habeas corpus review “[o]ut of respect for finality, comity, and the orderly

V.

Case: l:17-cv-00&59-SL Doc#: 15 Filed: 12/09/19 4of 6, PagelD#:1206

administrationof justice[.]” Dretkey. Haley, 541 U.S. 386, 388, 124 S. Gt. 1.847, ,158 L. Ed. 2d
659 (2004). “This is a corollary to the rule that ‘federal courts, will not disturb state court
judgments based on adequate and independent state law procedural grounds.’” Nelloms v.
Jackson, 129 F. App’x 933,-936 (6th Cir. 2005)' (quoting Dretke, 541 U.S. at 392))./‘The only
exceptions to this rule are when a state prisoner can demonstrate cause for the procedural default
and prejudice as a result of the alleged constitutional violation, or can demonstrate that failure to
review the constitutional claim will result in a fundamental miscarriage of justice.” Id (citing
Coleman v. Thompson, 501 U.S. 722, 749-50, 111 S. Ct. 2546, 115 L. Ed. 2d 640 (1991)); see
Bousley v. United States, 523 U.S. 614, 622,118 S. Ct. 1604,140 L. Ed. 2d 828 (1998) (citations
omitted).
Echols relies on the latter exception and “asserts that it would be truly a miscarriage of
justice to allow a procedural bar to prevent” the Court from reaching the merits of his habeas
claims. (Obj. at 1192-93.) A prisoner can establish a fundamental miscarriage of justice by
showing that “‘in light of all-the evidence; it .is more likely .than not that no reasonable juror
would have convicted him.’” Bousley, 523 U.S. at 623 (quoting Schlup v. Delo, 513 U.S. 298,
327-28, 115 S. Ct. 851, 130 L. Ed. 2d 808 (1995)); see Souterv. Jones, 395 F.3d 577, 589-90
(6th Cir. 2005)’(a prisoner must “~present[] evidence of innocence so strong that a court cannot
have confidence in the outcome of the trial unless the court is also satisfied that the trial was free
of nonharmless constitutional error’”) (quoting Schlup,-513 U.S. at 316).^ In other words, he
must demonstrate that “‘a constitutional violation has probably resulted in the conviction of one
who is actually innocent[r]’” See Schlup, 513 U.S. at 324 (quoting Murrayiv.- Carrier,’All U.S.
478, 496, 106 S. Ct. 2639, 91 L. Ed. 2d 397 (1986)). “To be credible, [a claim of actual
4

r
V ■'

i ^

Case: l:17-cv-00859-SL Doc #; 15 Filed: 12/09/19 5 of 6. PagelD#:1207

v

innocence] requires petitioner to support his allegations of constitutional error with new reliable
evidence—whether it be exculpatory scientific evidence, trustworthy eyewitness accounts, or
critical physical evidence—that was not presented at trial.” Id. at 324.
Echols fails to present any new, reliable evidence that was not available at his trial
showing that he is actually innocent of the crimes , for which'he is convicted. Instead, Echols
relies , on his merits arguments* by reproducing, virtually verbatim, portions of his traverse
relating to his-claims of improper joinder, insufficiency of the evidence, alleged Confrontation
Clause violations, and failure to merge,allied offensesat sentencing. (Obj. at 11947-20.) But
“‘[a]ctual innocence’ means factual innocence, not mere legal insufficiency.” Bousley, 523 U.S.
at 623. Echols’ complaints about the sufficiency of the trial evidence and the legitimacy of the
sentence and underlying complaint do not demonstrate that this is the “extraordinary case where
the petitioner demonstrates his actual innocence.”. Carter v. Mitchell, 443 F.3d 517, 538 (6th Cir.
2006) (citing, among authority, Murray, 477-U.S. at 496); see; e.g., Malcum v. Burt, 276 F.
Supp. 2d 664, 677 (E.D. Mich. 2003) (sufficiency of the;evidence argument insufficient to
invoke the actual innocence exception to the procedural default doctrine);.see also Schlub, 513
U.S. at 316 (“Without any new evidence of innocence, even the existence of a concededly
leritorious^eonstitutionalTviolattonns^iotnmitself.'sufficientrtOTestabltshTa-mTscarriage’tirfjustice”-'''
that would allow a habeas court to reach the merits of a barred claim.”).
The fact that Echols repackages these merits arguments alongside unsupported
conclusions that “clearly a miscarriage of justice has occurred in [the] present case” does not
change the Court’s analysis. (See, e.g., Obj. at 1193.) See Sweet v. Delo, 125 F.3d 1144, 1152 n.9
(8th Cir. 1997) (conclusory allegations of . actual innocence insufficient to excuse procedural
5

(

Case: 1:17-CV-00859-SL Doc #: 15 Filed: 12/09/19 6 of 6. PagelD #: 1208

default). At the federal habeas level, the burden is on Echols to demonstrate a credible actual
innocence claim, and his unsupported representations fail to satisfy this burden. See Floyd v.
Alexander, 148 F.3d 615, 618 (6th Cir. 1998); see also House v. Bell, 547 U.S. 518, 538, 126 S.
Ct. 2064, 165 L. Ed. 2d 1 (2006) (“A petitioner’s burden at the gateway stage is to demonstrate
that more likely than not, in light of the new evidence ... any reasonable juror would have
reasonable doubt.”).
Because Echols failed to meet his burden of advancing a credible actual innocence claim,
the Court agrees with the magistrate judge that the grounds asserted in Echols’ habeas petition
are procedurally barred. Echols’ objections to the R&R are OVERRULED.
IV. CONCLUSION

For the foregoing reasons, the R&R is ACCEPTED and the petition for a writ of habeas
corpus is DISMISSED. Further, for the same reasons, the Court CERTIFIES that an appeal from
this decision could not be taken in good faith, and that there is no basis upon which to issue a
Certificate of appealability. 28 U.S.C. § 2253; Fed. R. App. P. 22(b).
IT IS SO ORDERED.

Dated: December 9, 2019
HONORABLESARA LIOI
UNITED STATES DISTRICT JUDGE

6

C

#

Case: l:17-cv-00859-SL Doc#: 16 Filed: 12/09/19 1 of 1. PagelD#:1209

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF OHIO
EASTERN DIVISION

WILLIAM ECHOLS,

PETITIONER,
vs.

BRIGHAM SLOAN, Warden,

RESPONDENT.

)
)
)
)
)
)
)
)
)
)
)
)

CASE NO. 1:17CV859

JUDGE SARA LIOI

JUDGMENT ENTRY

For the reasons set forth in the contemporaneously filed memorandum opinion and order,
the report and recommendation of the magistrate judge (Doc. No. 13) is ACCEPTED and the
petition for a writ of habeas corpus (Doc. No. 1) is DISMISSED. Further, for the same reasons,
the Court CERTIFIES that an appeal from this decision could not be taken in good faith, and that
there is no basis upon which to issue a certificate of appealability. 28 U.S.C. § 2253; Fed. R.
App. P. 22(b).
IT IS SO ORDERED.

Dated: December 9, 2019

-

HONORABLE SARA LIOI
UNITED STATES DISTRICT JUDGE

Case: l:17-cv-00859-SL Doc #: 13 Filed: 10/22/18 1 of 17. PagelD #: 1172

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF OHIO
EASTERN DIVISION

WILLIAM ECHOLS,
Petitioner,
v.
BRIGHAM SLOAN, Warden,
Respondent.

CASE NO. 1:17 CV 859

)
)
)
)
)
)
)
)
)

JUDGE SARA LIOI
MAGISTRATE JUDGE DAVID A. RUIZ

REPORT AND RECOMMENDATION

Introduction
Petitioner William Echols, a prisoner in state custody, has filed a pro se petition for writ
of habeas corpus pursuant to 28 U.S.C. § 2254, challenging the constitutionality of his
convictions and sentences in State v. Echols, Case No. CR-13-580261-A. (R. 1.) Respondent
Warden Brigham Sloan1 has filed a return of writ. (R. 9.) Echols has filed a traverse. (R. 12.)
This matter is before the undersigned pursuant to Local Rule 72.2 for preparation of a report and
recommendation on Echols’ petition or other case-dispositive motions. For the reasons stated
below, the court recommends Echols’ petition be denied.
Factual Background
Ohio’s Eighth District Court of Appeals set forth the following facts underlying Echols’
convictions:
{H 3} On June 7, 1994, K.C. was walking home late at night from a session of
braiding a friend's hair. As she passed a large willow tree or shrub somewhere near
l

Brigham Sloan is the warden of the Lake Erie Correctional Institution in Conneaut, Ohio, where
Echols is incarcerated. (R. 9 at 1.)
1

Case: l:17-cv-00859-SL Doc#: 13 Filed: 10/22/18 2 of 17. PagelD#:1173

East 93rd Street and Woodland Avenue, a person jumped out from the tree and
came up behind K.C. The individual held a knife to her throat and threatened her.
He moved her from the sidewalk to behind the tree and raped her.
{H 4} The victim of a second attack, M.M., was unavailable to testify because she
was murdered in 2007. Her medical records documented her recounting of events
that occurred on May 8, 1999. In the course of her medical treatment she relayed
that she had been raped. She was walking home when a car pulled up and an
unknown individual told her to get into the car or he would hurt her. She complied.
She was hit in the head with a brick and raped. She was taken to the hospital by
ambulance where she was treated and a sexual assault examination was performed.
(U 5} Rape kits were collected from both victims and provided to Cleveland police.
K.C.’s rape kit remained in the custody of Cleveland police until it was tested in
2012. M.M.’s rape kit was processed by forensic scientists in 1999, but a DNA
profile was not developed at the time. In 2012, M.M.’s rape kit was processed and
a DNA profile of her attacker was developed. Both DNA profiles resulted in
matches to the same profile contained in a federal DNA database. As a result,
investigators with the Ohio Bureau of Criminal Investigation interviewed K.C. and
investigated the whereabouts of M.M. The investigators also obtained a sample of
DNA from appellant, the individual whose DNA profile was returned as a possible
match from the federal database. Two different forensic scientists testified that
appellant’s DNA profile was consistent with that of the attackers of M.M. and K.C.,
respectively. Both experts testified that appellant could not be excluded as the
contributor of the DNA profile developed from the respective rape kits, and the
probability of someone else being the contributor was one in 15 sextillion 610
quintillion.
State v. Echols, No. 102504, 2015 WL 8484088, at *1 (Ohio Ct. App. Dec. 10, 2015).
These facts “shall be presumed to be correct,” and Echols has the burden of rebutting the
presumption of correctness by clear and convincing evidence. 28 U.S.C. § 2254(e)(1); Warren v.
Smith, 161 F.3d 358, 360-61 (6th Cir. 1998).

2

Case: l:17-cv-00859-SL Doc#: 13 Filed: 10/22/18 3 of 17. PagelD#:1174

Procedural Background
A.

Trial Court

On December 6, 2013, the Cuyahoga County Grand Jury indicted Echols on the
following charges: two counts of rape in violation of Ohio Rev. Code § 2907.02(A)(2) and two
counts of kidnapping in violation of Ohio Rev. Code § 2905.01(A)(4). (R. 9-1, Ex. 1.) Echols
entered pleas of not guilty to all charges. (R. 9-1, Ex. 2.)
On October 6, 2014, Echols filed a motion requesting separate trials for charges relating
to the two victims, K.C. and M.M. (R. 9-1, Ex. 3.) The State opposed the motion (R. 9-1, Ex. 4),
and the trial court denied it. Echols, 2015 WL 8484088, at *2. The case proceeded to a jury trial
on October 8, 2014. (R. 9-2 at 2.) On October 17, 2014, the jury found Echols guilty of all
charges. (R. 9-1, Exs. 5, 6.)
On December 19, 2014, the trial court held a sentencing hearing. (R. 9-1, Ex. 7.) It
sentenced Echols to eleven years imprisonment for the rape charge and ten years imprisonment
for the kidnapping charge relating to victim K.C.; and ten years imprisonment each for the rape
and kidnapping charges relating to victim M.M. (Id.) The sentences were to be served
consecutively, for an aggregate sentence of forty-one years in prison. (Id.)
B.

Direct Appeal

On January 16, 2015, Echols, through new counsel, filed a timely notice of appeal to the
Eighth District Court of Appeals. (R. 9-1, Ex. 8.) The court sua sponte struck his appellate brief
because it failed to comply with a court rule prohibiting identification by name of victims of
sexual assault. (R. 9-1, Ex. 9.) Echols then filed a replacement brief complying with the rule,
which raised the following assignments of error:

3

Case: l:17-cv-00859-SL Doc#: 13 Filed: 10/22/18 4of 17. PagelD#:1175

1.

The trial court erred in denying Appellant’s motion for a separate trial,
which resulted in prejudice to the Defendant and violated his constitutional
right to a fair trial.

2.

The trial court erred by admitting the medical records of M.M. in violation
of Mr. Echols’ Sixth Amendment right to confrontation and Crawford.

3.

The evidence adduced at trial was insufficient as a matter of law to prove
beyond a reasonable doubt Mr. Echols was guilty of rape and kidnapping as
set forth in Counts Three and Four.

4.

The trial court erred when it failed to find the rape and kidnapping offenses
were allied offenses of similar import and merge them for sentencing
purposes.

(R. 9-1, Ex. 11 (capitalization altered).)
On December 10, 2015, the Ohio appellate court affirmed in part and reversed in part the
trial court’s judgment. (R. 9-1, Ex. 12.) It affirmed Echols’ convictions but found the trial court
erred when it did not merge the kidnapping and rape counts relating to K.C., and remanded the
case for execution of a new sentence. (R. 9-1, Ex. 12 at 95.)
On March 9, 2016, Echols, acting pro se, filed a notice of appeal of the December 2015
state appellate court’s judgment and a motion for leave to file a delayed appeal in the Ohio
Supreme Court. (R. 9-1, Exs. 19, 20.) The court denied Echols’ motion for delayed appeal and
dismissed the case on May 4, 2016. (R. 9-1, Ex. 21.)
C.

Resentencing

Meanwhile, on March 31, 2016, the trial court resentenced Echols in accordance with the
state appellate court’s instructions. (R. 9-1, Ex. 13.) It merged the kidnapping and rape counts
relating to K.C. and imposed a sentence of eleven years imprisonment for the rape charge. (Id.) It
resentenced Echols to ten years imprisonment each for the rape and kidnapping charges relating

4

Case: l:17-cv-00859-SL Doc #: 13 Filed: 10/22/18 5 of 17. PagelD #: 1176

to M.M. (Id.) All sentences were to be served consecutively, for a new aggregate sentence of
thirty-one years in prison. (Id.)
A review of the state appellate court’s docket indicates that Echols did not appeal that
judgment. See http://cpdocket.cp.cuvahogacountv.us.
D.

Post-Conviction Review

On June 1, 2015, Echols, again acting pro se, filed a petition to vacate or set aside his
conviction or sentence in the trial court. (Doc. 9-1, Ex. 14.) In his petition, he raised the
following claims:
1.

Ineffective assistance of counsel. . . . Counsel did not subpoena witnesses
in time for trial, victim inconsistencies with statements.

2.

Ineffective assistance of counsel. . . . Trial counsel told me that it was a
felony of the forth [s/c] degree on the table and that the prosecutor was
trying to figure out what to charge me with all the way up until trial, the
deal was offered to me in July by my counsel and never seeing him againe
[v/c] until trial.

(R. 9-1, Ex. 14 (capitalization altered).) The State opposed the petition and filed proposed
findings of fact and conclusions of law. (R. 9-1, Exs. 15, 16.)
The court denied Echols’ petition on July 2, 2015. (R. 9-1, Ex. 17.) A review of the state
appellate court’s docket indicates that Echols did not appeal that judgment either. See
http://cpdocket.cp.cuvahogacountv.us.

Federal Habeas Corpus
Echols filed the pro se petition for writ of habeas corpus now before this court on April
21, 2017. (R. 1.) He asserts the following grounds for relief:

5

Case: l:17-cv-00859-SL Doc#: 13 Filed: 10/22/18 6 of 17. PagelD#:1177

1.

The trial court erred by denying Petitioner’s motion for a separate trial
which resulted in prejudice to the Petitioner and violated his constitutional
right to a fair trial.

2.

The trial court erred by admitting the medical records of [M.M.] in violation
of Petitioner’s Sixth Amendment right to confrontation and Crawford[.]

3.

The evidence adduced at trial was insufficient as a matter of law to prove
beyond a reasonable doubt Petitioner was guilty of rape and kidnapping as
set forth in count three and four[.]

4.

The trial court erred when it failed to find the rape and kidnapping offenses
were allied offenses of similar import and merge them for sentencing
purposes[.]

(R. 1 at 5, 6, 8, 9.)
Respondent filed a Motion to Dismiss on August 3, 2017. (R. 9.) Echols filed a traverse
on October 12, 2017. (R. 12.) The Honorable Judge Lioi construed Respondent’s Motion to
Dismiss as an answer to Echols’ petition, or a return of writ, and ordered the undersigned to
address the defenses and other issues presented in it, in due course.
Standards of Review
A.

AEDPA Review

Echols’ petition for writ of habeas corpus is governed by the Antiterrorism and Effective
Death Penalty Act of 1996 (“AEDPA”), as it was filed after the Act’s 1996 effective date. Lindh
v. Murphy, 521 U.S. 320, 336 (1997); Murphy v. Ohio, 551 F.3d 485, 493 (6th Cir. 2009). The
Act “recognizes a foundational principle of our federal system: State courts are adequate forums
for the vindication of federal rights.” Burt v. Titlow, 134 S. Ct. 10, 15 (2013). It therefore “erects
a formidable barrier to federal habeas relief for prisoners whose claims have been adjudicated in
state court.” Id.

6

Case: l:17-cv-00859-SL Doc#: 13 Filed: 10/22/18 7 of 17. PagelD#:1178

One of AEDPA’s most significant limitations on district courts’ authority to grant writs of
habeas corpus is found in § 2254(d). That provision forbids a federal court from granting habeas
relief with respect to a “claim that was adjudicated on the merits in State court proceedings”
unless the state-court decision either:
1.

resulted in a decision that was contrary to, or involved an unreasonable
application of, clearly established Federal law, as determined by the
Supreme Court of the United States; or

2.

resulted in a decision that was based on an unreasonable determination of
the facts in light of the evidence presented in the State court proceeding.

28 U.S.C. § 2254(d).
Habeas courts review the “last explained state-court judgment” on the federal claim at
issue. Ylst v. Nunnemaker, 501 U.S. 797, 805 (1991) (emphasis original). A state court has
adjudicated a claim “on the merits,” and AEDPA deference applies, regardless of whether the
state court provided little or no reasoning at all for its decision. Harrington v. Richter, 562 U.S.
86, 99 (2011).
“Clearly established Federal law” for purposes of § 2254(d)(1) “is the governing legal
principle or principles set forth by the Supreme Court at the time the state court renders its
decision.” Lockyer v. Andrade, 538 U.S. 63, 71-72 (2003). It includes “only the holdings, as
opposed to the dicta, of [Supreme Court] decisions.” White v. Woodall, 134 S. Ct. 1697, 1702
(2014) (internal quotation marks and citations omitted). The state-court decision need not refer to
relevant Supreme Court cases or even demonstrate an awareness of them; it is sufficient that the
result and reasoning are consistent with Supreme Court precedent. Early v. Packer, 537 U.S. 3, 8
(2002) (per curiam). A state-court decision is contrary to “clearly established Federal law” under
§ 2254(d)(1) only “if the state court arrives at a conclusion opposite to that reached by [the
7

Case: l:17-cv-00859-SL Doc#: 13 Filed: 10/22/18 8 of 17. PagelD#:1179

Supreme] Court on a question of law or if the state court decides a case differently than [the
Supreme] Court has on a set of materially indistinguishable facts.” Williams v. Taylor, 529 U.S.
362, 412-13 (2000). In addition, “review under § 2254(d)(1) is limited to the record that was
before the state court that adjudicated the claim on the merits.” Cullen v. Pinholster, 563 U.S.
170, 181 (2011).
A state-court decision is an “unreasonable determination of the facts” under § 2254(d)(2)
only if the court made a “clear factual error.” Wiggins v. Smith, 539 U.S. 510, 528-29 (2003).
The petitioner bears the burden of rebutting the state court’s factual findings “by clear and
convincing evidence.” Burt, 134 S. Ct. at 15; see also Rice v. White, 660 F.3d 242, 250 (6th Cir.
2011). This requirement mirrors the “presumption of correctness” AEDPA affords state-court
factual determinations, which only can be overcome by clear and convincing evidence. 28 U.S.C.
§ 2254(e)(1). The Supreme Court has cautioned, “‘a state-court factual determination is not
unreasonable merely because the federal habeas court would have reached a different conclusion
in the first instance.’” Burt, 134 S. Ct. at 15 (quoting Wood v. Allen, 558 U.S. 290, 301 (2010)).
Indeed, the Supreme Court repeatedly has emphasized that § 2254(d), as amended by
AEDPA, is an intentionally demanding standard, affording great deference to state-court
adjudications of federal claims. A petitioner, therefore, “must show that the state court’s ruling ..
. was so lacking in justification that there was an error well understood and comprehended in
existing law beyond any possibility for fairminded disagreement.” Harrington, 562 U.S. at 103.
This is a very high standard, which the Court readily acknowledges: “If this standard is difficult
to meet, that is because it is meant to be.” Id. at 102.

8

Case: l:17-cv-00859-SL Doc #: 13 Filed: 10/22/18 9 of 17. PagelD #: 1180

B.

Exhaustion and Procedural Default

Under AEDPA, state prisoners must exhaust all possible state remedies, or have no
remaining state remedies, before a federal court will review a petition for a writ of habeas
corpus. 28 U.S.C. § 2254(b) and (c); see also Rose v. Lundy, 455 U.S. 509 (1982). This entails
giving the state courts “one full opportunity to resolve any constitutional issues by invoking one
complete round of the State’s established appellate review process.” O’Sullivan v. Boerckel, 526
U.S. 838, 845 (1999). In other words, “the highest court in the state in which the petitioner was
convicted [must have] been given a full and fair opportunity to rule on the petitioner’s claims.”
Manning v. Alexander, 912 F.2d 878, 881 (6th Cir. 1990).
Procedural default is a related but distinct concept from exhaustion. Williams v.
Anderson, 460 F.3d 789, 806 (6th Cir. 2006). Procedural default occurs when a habeas petitioner
fails to obtain consideration of a federal constitutional claim by state courts because he failed to:
(1) comply with a state procedural rule that prevented the state courts from reaching the merits of
the petitioner’s claim; or (2) fairly raise that claim before the state courts while state remedies
were still available. See, e.g., Wainwright v. Sykes, 433 U.S. 72, 80, 84-87 (1977); Engle v.
Isaac, 456 U.S. 107, 125 n.28 (1982); Williams, 460 F.3d at 806. In determining procedural
default, the federal court again looks to the last explained state-court judgment. Ylst, 501 U.S. at
805; Combs v. Coyle, 205 F.3d 269, 275 (6th Cir. 2000).
Where a state court declines to address a prisoner’s federal claims because the prisoner
has failed to meet a state procedural requirement, federal habeas review is barred as long as the
state judgment rested on “independent and adequate” state procedural grounds. Coleman v.
Thompson, 501 U.S. 722, 729 (1991). To be independent, a state procedural rule and the state

9

Case: l:17-cv-00859-SL Doc#: 13 Filed: 10/22/18 10 of 17. PagelD#:1181

courts’ application of it must not rely in any part on federal law. Id. at 732-33. To be adequate, a
state procedural rule must be ‘“firmly established’ and ‘regularly followed’” by the state courts at
the time it was applied. Beard v. Kindler, 558 U.S. 53, 60-61 (2009).
A petitioner also may procedurally default a claim by failing to raise the claim in state
court, and pursue the claim through the state’s ordinary appellate review procedures, if, at the
time of the federal habeas petition, state law no longer allows the petitioner to raise the claim.
Williams, 460 F.3d at 806 (quoting O’Sullivan, 526 U.S. at 848); see also Baston v. Bagley, 282
F. Supp. 2d 655, 661 (N.D. Ohio 2003) (“Issues not presented at each and every level [of the
state courts] cannot be considered in a federal habeas corpus petition.”). Under these
circumstances, while the exhaustion requirement is technically satisfied because there are no
longer any state-court remedies available to the petitioner, the petitioner’s failure to have the
federal claims fully considered in the state courts constitutes a procedural default of those claims,
barring federal habeas review. Williams, 460 F.3d at 806.
Furthermore, to “fairly present” a claim to a state court, a petitioner must assert both its
legal and factual basis. Id. (citing McMeans v. Brigano, 228 F.3d 674, 681 (6th Cir. 2000)). Most
importantly, a ‘“petitioner must present his claim to the state courts as a federal constitutional
issue - not merely as an issue arising under state law.’” Williams, 460 F.3d at 806 (quoting
Koontz v. Glossa, 731 F.2d 365, 368 (6th Cir. 1984)).
A petitioner may overcome procedural default by demonstrating cause for the default and
actual prejudice that resulted from the alleged violation of federal law, or that there will be a
“fundamental miscarriage of justice” if the claim is not considered. Coleman, 501 U.S. at 750.
‘“[C]ause’ under the cause and prejudice test must be something external to the petitioner,

10

Case: l:17-cv-00859-SL Doc#: 13 Filed: 10/22/18 11 of 17. PagelD#:1182

something that cannot be fairly attributed to him.” Id. “[T]he existence of cause for a procedural
default must ordinarily turn on whether the prisoner can show that some objective factor external
to the defense impeded counsel’s efforts to comply with the State’s procedural rule.” Id. “A
fundamental miscarriage of justice results from the conviction of one who is ‘actually innocent.’”
Lundgren v. Mitchell, 440 F.3d 754, 764 (6th Cir. 2006) (citing Murray v. Carrier, All U.S. 478,
496 (1986)).
C.

Cognizability

To the extent that claims asserted in federal habeas petitions allege state-law violations,
they are not cognizable on federal habeas review and should be dismissed on that basis. “It is not
the province of a federal habeas court to reexamine state-court determinations on state-law
questions. In conducting habeas review, a federal court is limited to deciding whether a
conviction violated the Constitution, laws, or treaties of the United States.” Estelle v. McGuire,
502 U.S. 62, 68 (1991) (citing 28 U.S.C. § 2241); see also Lewis v. Jeffers, 497 U.S. 764, 780
(1990) (“[Fjederal habeas corpus relief does not lie for errors of state law.”); Engle, 456 U.S. at
121 n.21 (“We have long recognized that a ‘mere error of state law’ is not a denial of due
process.”) (citation omitted)).
State-court rulings on issues of state law may, however, “rise to the level of due process
violations [if] they ‘offend[] some principle of justice so rooted in the traditions and conscience
of our people as to be ranked as fundamental.’” Seymour v. Walker, 224 F.3d 542, 552 (6th Cir.
2000) (quoting Montana v. Egelhoff 518 U.S. 37, 43 (1996)). But they must be “so egregious
that [they] result in a denial of fundamental fairness.” Bugh v. Mitchell, 329 F.3d 496, 512 (6th
Cir. 2003). Fundamental fairness under the Due Process Clause is compromised where “the

11

Case: l:17-cv-00859-SL Doc#: 13 Filed: 10/22/18 12 of 17. PagelD#:1183

action complained of. .. violates those ‘fundamental conceptions of justice which lie at the base
of our civil and political institutions,’ . .. and which define ‘the community’s sense of fair play
and decency.’” Dowling v. United States, 493 U.S. 342, 353 (1990) (internal citations omitted).
The Supreme Court, therefore, “ha[s] defined the category of infractions that violate
‘fundamental fairness’ very narrowly.” Id. at 352.

Analysis
Respondent argues that all of Echols’ grounds for relief are procedurally defaulted
because he did not fairly present them to the Ohio Supreme Court on direct review. (R. 9 at 811.) The court agrees.
As explained above, to exhaust claims in state courts and preserve them for federal
habeas review, “the highest court in the state in which the petitioner was convicted [must have]
been given a full and fair opportunity to rule on the petitioner’s claims.” Manning v. Alexander,
912 F.2d 878, 881 (6th Cir. 1990). Echols raised virtually identical claims in the state court of
appeals as he does here. {See R. 9-1, Ex. 11.) But he did not file a timely appeal, from the state
appellate court’s judgment denying those claims, to the Ohio Supreme Court; and the Ohio high
court denied his motion for a delayed appeal. {See R. 9-1, Exs. 19-21.) The Ohio Supreme
Court’s summary denial of a motion for delayed appeal is presumed to be a procedural ruling
sufficient to bar federal habeas review. Bonilla v. Hurley, 370 F.3d 494, 497 (6th Cir. 2004) (per
curiam).
Moreover, because Echols’ habeas claims arise out of the record of proceedings in the
trial court, Ohio’s res judicata doctrine now prohibits Echols from raising the claims in any state

12

Case: l:17-cv-00859-SL Doc#: 13 Filed: 10/22/18 13 of 17. PagelD#:1184

post-conviction proceeding. See Wong v. Money, 142 F.3d 313, 322 (6th Cir. 1998) (“Under
Ohio law, the failure to raise on appeal a claim that appears on the face of the record constitutes a
procedural default under the State’s doctrine of res judicata.”); State v. Perry, 10 Ohio St. 2d 175
(Ohio 1967) (holding that res judicata bars a criminal defendant from raising in post-conviction
proceedings those claims that could have been raised on direct appeal). And with no state-court
remedies still available to him, Echols has procedurally defaulted these claims. See, e.g., Gray v.
Netherland, 518 U.S. 152, 161-62 (1996) (“Because the exhaustion requirement ‘refers only to
remedies still available at the time of the federal petition,’. . ., it is satisfied ‘if it is clear that [the
habeas petitioner’s] claims are now procedurally barred under [state] law’ ....” (internal
citations omitted)); Alley v. Bell, 307 F.3d 380, 385 (6th Cir. 2002) (“[I]f an unexhausted claim
would be procedurally barred under state law, that claim is procedurally defaulted for purposes
of federal habeas review.”).
Echols argues, with no evidentiary support, that his delayed appeal to the Ohio Supreme
Court and the resulting procedural default was caused by his transfer to another prison, which
prevented him from receiving a letter from his attorney informing him of the appellate court
decision until February 2016. (R. 12 at 7.) District courts have rejected similar unsubstantiated
claims that a prison transfer constituted cause to excuse a procedural default. See, e.g., Rahe v.
Jackson, No. 2:09 CV 98, 2010 WL 3656049, at *1 (S.D. Ohio Sept. 15, 2010) (finding “nothing
in the record” supported petitioner’s allegation that a loss of legal materials during a prison
transfer, among other things, established cause to excuse a procedural default); United States v.
Muniz, No. 91 C 1583, 1992 WL 82496, at *3 (N.D. Ill. Apr. 20, 1992) (“Had Muniz attempted
to buttress this assertion with evidence that prison transfers had indeed prevented him from

13

Case: l:17-cv-00859-SL Doc#: 13 Filed: 10/22/18 14 of 17. PagelD#:1185

receiving notice of the June 12, 1990 minute order, he might well have established cause
excusing his procedural default.”).
Nevertheless, even if Echols had provided evidence that the prison transfer prevented him
from receiving his counsel’s correspondence, and established cause for the default, he still could
not demonstrate prejudice. Echols acknowledged in his motion for delayed appeal in the Ohio
Supreme Court that his case manager provided him a copy of the state appellate court’s decision
eight days after it was issued, on December 18, 2015. (R. 9-1, Ex. 20 at 134.) In Smith v. Ohio
Dep 7 ofRehab. & Corr., 463 F.3d 426 (6th Cir. 2006), the Sixth Circuit concluded that a habeas
petitioner’s appellate counsel’s failure to inform him of a state appellate court’s decision until
three days before the deadline for filing an appeal of that decision constituted constitutionally
deficient performance. Id. at 434-35. But it found no prejudice because the petitioner did not take
action to appeal the decision until approximately five months after learning of the decision, well
beyond the Ohio Supreme Court’s forty-five-day appeal deadline. Id. at 435-36. The circuit court
applied a:
rebuttable presumption that if the period of time between when the
defendant learned of the decision and when he or she attempted to
appeal the decision is greater than the period allotted by state law
for the timely filing of an appeal—here, forty-five days—the
defendant fails to demonstrate that he or she “would have timely
appealed” the decision but for the counsel’s deficient failure to
notify the defendant of the decision.
Id. at 435 (“In the absence of other circumstances hindering the defendant’s ability to attempt to
appeal the decision within this time frame, allowing a greater amount of time would generally
bestow a windfall upon the defendant....”).

14

Case: l:17-cv-00859-SL Doc #: 13 Filed: 10/22/18 15 of 17. PagelD #: 1186

Here, Echols admits he received notice of the state appellate court opinion eight days
after it was issued, on December 18, 2015, leaving him thirty-seven days to perfect his appeal to
the Ohio Supreme Court. He did not file his notice of appeal and motion for delayed appeal until
March 9, 2016, eighty-two days later. Echols claimed in his delayed-appeal motion that he was
further hampered in filing a timely appeal because the “inmate ‘Law Clerks’” could not help him
and he was forced to rely on “one of the inmates in the law library.” (R. 9-1, Ex. 20 at 134.)
However, just as there is no right to counsel beyond the first appeal of right, Pennsylvania v.
Finley, 481 U.S. 551, 555 (1987), there is no constitutional right to the effective assistance of
fellow prisoners. The Supreme Court has held that “the fundamental constitutional right of
access to the courts requires prison authorities to assist inmates in the preparation and filing of
meaningful legal papers by providing prisoners with adequate law libraries or adequate
assistance from persons trained in the law.” Bounds v. Smith, 430 U.S. 817 (1977). But the
Bounds decision “did not create an abstract, freestanding right to a law library or legal
assistance.” Lewis v. Casey, 518 U.S. 343, 351 (1996). Furthermore, the Sixth Circuit repeatedly
has rejected petitioners’ attempts to fault their ignorance of the law or prison resources for failing
to comply with procedural requirements for filing court pleadings. See, e.g., Bonilla, 370 F.3d at
498 (finding a petitioner’s pro se status, ignorance of the law and court procedural requirements,
and limited time in a prison law library insufficient to excuse a procedural default). Echols,
therefore, has failed to demonstrate that he “would have timely appealed” the decision but for the
prison transfer, Smith, 463 F.3d at 435, and has not established cause and prejudice to excuse the
procedural default of the claims he presents here.

15

Case: l:17-cv-00859-SL Doc#: 13 Filed: 10/22/18 16 of 17. PagelD#:1187

Echols further contends that the default should be excused under the “fundamental
miscarriage of justice,” or “actual innocence,” exception to the cause and prejudice requirement.
(R. 12 at 7.) The Supreme Court has held that this “narrow exception” applies only where a
constitutional violation has “probably resulted” in the conviction of one who is “actually
innocent” of the substantive offense. Dretke v. Haley, 541 U.S. 386, 392 (2004). To demonstrate
“actual innocence,” a petitioner must show ‘“by clear and convincing evidence that, but for
constitutional error, no reasonable juror would have found the petitioner [guilty] under the
applicable state law.’” Id. (quoting Sawyer v. Whitley, 505 U.S. 333, 336 (1992)). The claim
requires a showing of “new reliable evidence” and factual innocence, not mere legal
insufficiency. See Schulp v. Delo, 513 U.S. 298, 324 (1995); Bousley v. United States, 523 U.S.
614, 623 (1998).
Echols presents no new evidence here to show he is actually innocent of the crimes for
which he was convicted. This court finds, therefore, that each of Echols’ claims is procedurally
defaulted and recommends that the petition be denied on that basis.2

2 In addition, Respondent argues (R. 9 at 16-17) that two of Echols’ claims generally are not
cognizable on federal habeas review: Ground One, regarding severance of the offenses, see, e.g.,
Lamar v. Houk, 798 F.3d 405,428 (6th Cir. 2015) (“Misjoinder is unconstitutional only if it results
in prejudice so great as to deny a defendant his due process right to a fair trial.”) (citing United
States v. Lane, 474 U.S. 438, 446 n.8 (1986)); and Ground Four, relating to sentencing, see, e.g.,
Austin v. Jackson, 213 F.3d 298, 300 (6th Cir. 2000) (observing that challenges to a state court’s
interpretation and application of state sentencing laws generally are not cognizable in federal
habeas corpus). The court has not reached these alternative grounds, because it recommends
dismissal based on procedural default.
16

Case: l:17-cv-00859-SL Doc #: 13 Filed: 10/22/18 17 of 17. PagelD #: 1188

Conclusion and Recommendation
For the reasons stated above, the Court recommends that Petitioner William Echols’
petition for writ of habeas corpus (R. 1) be denied in its entirety, because the claims raised are
procedurally defaulted.

Date: October 22, 2018

s/ David A. Ruiz
David A. Ruiz
United States Magistrate Judge

OBJECTIONS
Any objections to this Report and Recommendation must be filed with the Clerk of Court
within fourteen (14) days after the party objecting has been served with a copy of this Report and
Recommendation. Failure to file objections within the specified time WAIVES the right to
appeal the Magistrate Judge’s recommendation. See United States v. Walters, 638 F.2d 947 (6th
Cir. 1981); Thomas v. Arn, 474 U.S. 140 (1985), reh’gdenied, 474 U.S. 1111 (1986).

17

